No. 20-138

 

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, ET AL., PETITIONERS,
v.

SIERRA CLUB, ET AL.

DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, ET AL., PETITIONERS,
ve

STATES OF CALIFORNIA AND NEW MEXICO

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF FORMER MEMBERS OF CONGRESS
AS AMICI CURIAE SUPPORTING RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,562 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January19, 2021.

 

Colin Casey Hegan
Wilson-Epes Printing Co., Inc.
